1

APPENDIX TABLE OF CONTENTS
Appendix A Order in the United States Court of
Appeals for the Eleventh Circuit (September
8, 2020)
App. 1
Appendix B Order in the United States Court of
Appeals for the Eleventh Circuit (November
17, 2020)..........................
..App. 3
Appendix C 5 U.S.C. § 7703

..App. 5

Fed. R. App. P. 4.................

..App. 9

Fed. R. App. P. 15...............

App. 14

Appendix D The All Circuit Review Act, Public
Law No. 115-195 (July 7, 2018)
App. 17
Appendix E United States Senate, Report No.
115-229 (April 12, 2018)
App. 19
Appendix F United States House of Representa­
tives, Report No. 115-337 (October 2,2017) ....App. 35

App. 1
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-90011-J
THASHAA. BOYD,
Petitioner,
versus
U.S. DEPARTMENT OF VETERANS AFFAIRS,
U.S. MERIT SYSTEMS PROTECTION BOARD,
Respondents.
Petition for Permission to Appeal from the
United States District Court for the
Northern District of Georgia
(Filed Sep. 8, 2020)
Before: GRANT, LUCK and LAGOA, Circuit Judges.
BY THE COURT:
Petitioner Thasha A. Boyd’s “Petition for Permis­
sion to Appeal,” in which Boyd seeks to obtain review
of the Merit Systems Protection Board’s November
2017 decision, which became final in December 2017,
is DENIED. We first note that the proper procedure for
seeking review of such a decision is to file a petition for

App. 2
review in the appropriate court of appeals. See Fed. R.
App. R 15; 5 U.S.C. § 7703(b)(1)(B). To the extent Boyd
seeks to petition us for permission to file a petition for
review of the Board’s decision pursuant to 5 U.S.C.
§ 7703(b)(1)(B), and to the extent that decision is reviewable under that provision, her June 2020 petition
was filed well outside the 60-day period for seeking
review of that order and, accordingly, we would lack ju­
risdiction over the petition. See H Brown v. Dir., Office
of Workers’ Compensation Programs, 864 F.2d 120,
123-24 (11th Cir. 1989) (noting that statutory time
limitations for seeking review of agency decisions are
jurisdictional). Thus, Boyd’s petition is denied. All
pending motions are DENIED as moot.

App. 3
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-90011-J
THASHAA. BOYD,
Petitioner,
versus
U.S. DEPARTMENT OF VETERANS AFFAIRS,
U.S. MERIT SYSTEMS PROTECTION BOARD,
Respondents.
Petition for Permission to Appeal from the
United States District Court for the
Northern District of Georgia
(Filed Nov. 17, 2020)
Before: GRANT, LUCK and LAGOA, Circuit Judges.
BY THE COURT:
Thasha A. Boyd’s construed motion for reconsider­
ation of our September 8, 2020 order denying her
“Petition for Permission to Appeal” is DENIED. We
originally denied Boyd’s petition after noting that, to
the extent she sought permission to file a petition
for review of the Merit Systems Protection Board’s

App. 4
decision, her June 2020 petition was filed outside the
60-day period for doing so. In our order, we noted that
we would have lacked jurisdiction over Boyd’s un­
timely petition. In Boyd’s construed motion for recon­
sideration of this order, she disputes the jurisdictional
nature of our order denying her petition.1 Regardless
of whether this 60-day period is jurisdictional or a
claims processing rule, the government objected to
Boyd’s untimely petition in its response. Accordingly,
we were required to deny her petition regardless of
whether the 60-day deadline is jurisdictional. See, e.g.,
United States v. Lopez, 562 F.3d 1309, 1312-14 (11th
Cir. 2009) (discussing how, although the time to appeal
in a criminal case is not jurisdictional, this Court will
dismiss such an untimely appeal if the government
objects to the issue).

1 Boyd also appears to argue that the All Circuit Review Act,
Pub. L. No. 115-195, 132 Stat. 1510 (2018), created a special ex­
ception such that the 60-day period does not apply to her. There
is no basis in the statute’s, or the amendment’s, text suggesting
this extraordinary exception.

App. 5
APPENDIX C
5 U.S.C. § 7703
§ 7703. Judicial review of decision of the Merit Sys­
tems Protection Board
Effective: July 7, 2018
(a)
(1) Any employee or applicant for employment
adversely affected or aggrieved by a final order or
decision of the Merit Systems Protection Board
may obtain judicial review of the order or decision.
(2) The Board shall be named respondent in any
proceeding brought pursuant to this subsection,
unless the employee or applicant for employment
seeks review of a final order or decision on the
merits on the underlying personnel action or on a
request for attorney fees, in which case the agency
responsible for taking the personnel action shall
be the respondent.
(b)
(1)
(A) Except as provided in subparagraph B
and paragraph (2) of this subsection, a petition to
review a final order or final decision of the Board
shall be filed in the United States Court of Appeals
for the Federal Circuit. Notwithstanding any
other provision of law, any petition for review must
be filed within 60 days after the date the petitioner
received notice of the final order or decision of the
Board.

App. 6
(B) A petition to review a final order or final
decision of the Board that raises no challenge to
the Board’s disposition of allegations of a prohib­
ited personnel practice described in section
2302(b) other than practices described in section
2302(b)(8), or 2302(b)(9)(A)(i), (B), (C), or (D) shall
be filed in the United States Court of Appeals for
the Federal Circuit or any court of appeals of com­
petent jurisdiction. Notwithstanding any other
provision of law, any petition for review shall be
filed within 60 days after the Board issues notice
of the final order or decision of the Board.
(2) Cases of discrimination subject to the provi­
sions of section 7702 of this title shall be filed un­
der section 717(c) of the Civil Rights Act of 1964
(42 U.S.C. 2000e-16(c)), section 15(c) of the Age
Discrimination in Employment Act of 1967 (29
U.S.C. 633a(c)), and section 16(b) of the Fair Labor
Standards Act of 1938, as amended (29 U.S.C.
216(b)), as applicable. Notwithstanding any other
provision of law, any such case filed under any
such section must be filed within 30 days after the
date the individual filing the case received notice
of the judicially reviewable action under such sec­
tion 7702.
(c) In any case filed in the United States Court of Ap­
peals for the Federal Circuit, the court shall review the
record and hold unlawful and set aside any agency ac­
tion, findings, or conclusions found to be—
(1) arbitrary, capricious, an abuse of discretion,
or otherwise not in accordance with law;

App. 7
(2) obtained without procedures required by law,
rule, or regulation having been followed; or
(3) unsupported by substantial evidence;
except that in the case of discrimination brought
under any section referred to in subsection (b)(2)
of this section, the employee or applicant shall
have the right to have the facts subject to trial de
novo by the reviewing court.
(d)
(1) Except as provided under paragraph (2), this
paragraph shall apply to any review obtained by
the Director of the Office of Personnel Manage­
ment. The Director may obtain review of any final
order or decision of the Board by filing, within 60
days after the Board issues notice of the final order
or decision of the Board, a petition for judicial re­
view in the United States Court of Appeals for the
Federal Circuit if the Director determines, in the
discretion of the Director, that the Board erred in
interpreting a civil service law, rule, or regulation
affecting personnel management and that the
Board’s decision will have a substantial impact on
a civil service law, rule, regulation, or policy di­
rective. If the Director did not intervene in a mat­
ter before the Board, the Director may not petition
for review of a Board decision under this section
unless the Director first petitions the Board for a
reconsideration of its decision, and such petition is
denied. In addition to the named respondent, the
Board and all other parties to the proceedings be­
fore the Board shall have the right to appear in
the proceeding before the Court of Appeals. The

App. 8
granting of the petition for judicial review shall be
at the discretion of the Court of Appeals.
(2) This paragraph shall apply to any review ob­
tained by the Director of the Office of Personnel
Management that raises no challenge to the
Board’s disposition of allegations of a prohibited
personnel practice described in section 2302(b)
other than practices described in section
2302(b)(8), or 2302(b)(9)(A)(i), (B), (C), or (D). The
Director may obtain review of any final order or
decision of the Board by filing, within 60 days after
the Board issues notice of the final order or deci­
sion of the Board, a petition for judicial review in
the United States Court of Appeals for the Federal
Circuit or any court of appeals of competent juris­
diction if the Director determines, in the discretion
of the Director, that the Board erred in interpret­
ing a civil service law, rule, or regulation affecting
personnel management and that the Board’s deci­
sion will have a substantial impact on a civil ser­
vice law, rule, regulation, or policy directive. If the
Director did not intervene in a matter before the
Board, the Director may not petition for review of
a Board decision under this section unless the Di­
rector first petitions the Board for a reconsidera­
tion of its decision, and such petition is denied. In
addition to the named respondent, the Board and
all other parties to the proceedings before the
Board shall have the right to appear in the pro­
ceeding before the court of appeals. The granting
of the petition for judicial review shall be at the
discretion of the court of appeals.

App. 9
Fed. R. App. P. 4
Appeal as of Right—When Taken
[Text of subdivision (a) effective until December 1,
2016, absent contrary Congressional action.]
(a) Appeal in a Civil Case.
(1) Time for Filing a Notice of Appeal.
(A) In a civil case, except as provided in
Rules 4(a)(1)(B), 4(a)(4), and 4(c), the notice of
appeal required by Rule 3 must be filed with
the district clerk within 30 days after entry of
the judgment or order appealed from.
(B) The notice of appeal may be filed by any
party within 60 days after entry of the judg­
ment or order appealed from if one of the par­
ties is:
(i) the United States;
(ii) a United States agency;
(iii) a United States officer or employee
sued in an official capacity; or
(iv) a current or former United States
officer or employee sued in an individual
capacity for an act or omission occurring
in connection with duties performed on
the United States’ behalf—including all
instances in which the United States rep­
resents that person when the judgment
or order is entered or files the appeal for
that person.

App. 10
(C) An appeal from an order granting or
denying an application for a writ of error co­
ram nobis is an appeal in a civil case for pur­
poses of Rule 4(a).
(2) Filing Before Entry of Judgment. A notice of
appeal filed after the court announces a decision
or order—but before the entry of the judgment or
order—is treated as filed on the date of and after
the entry.
(3) Multiple Appeals. If one party timely files a
notice of appeal, any other party may file a notice
of appeal within 14 days after the date when the
first notice was filed, or within the time otherwise
prescribed by this Rule 4(a), whichever period
ends later.
(4) Effect of a Motion on a Notice of Appeal.
(A) If a party timely files in the district court
any of the following motions under the Fed­
eral Rules of Civil Procedure, the time to file
an appeal runs for all parties from the entry
of the order disposing of the last such remain­
ing motion:
(i) for judgment under Rule 50(b);
(ii) to amend or make additional factual
findings under Rule 52(b), whether or not
granting the motion would alter the judg­
ment;
(iii) for attorney’s fees under Rule 54 if
the district court extends the time to ap­
peal under Rule 58;

App. 11
(iv) to alter or amend the judgment un­
der Rule 59;
(v) for a new trial under Rule 59; or
(vi) for relief under Rule 60 if the mo­
tion is filed no later than 28 days after the
judgment is entered.
(B)(i) If a party files a notice of appeal after
the court announces or enters a judgment—
but before it disposes of any motion listed in
Rule 4(a)(4)(A)—the notice becomes effective
to appeal a judgment or order, in whole or in
part, when the order disposing of the last such
remaining motion is entered.
(ii) A party intending to challenge an order
disposing of any motion listed in Rule
4(a)(4)(A), or a judgment’s alteration or
amendment upon such a motion, must file a
notice of appeal, or an amended notice of ap­
peal—in compliance with Rule 3(c)—within
the time prescribed by this Rule measured
from the entry of the order disposing of the
last such remaining motion.
(iii) No additional fee is required to file an
amended notice.
(5) Motion for Extension of Time.
(A) The district court may extend the time to
file a notice of appeal if:
(i) a party so moves no later than 30
days after the time prescribed by this
Rule 4(a) expires; and

App. 12
(ii) regardless of whether its motion is
filed before or during the 30 days after the
time prescribed by this Rule 4(a) expires,
that party shows excusable neglect or
good cause.
(B) A motion filed before the expiration of
the time prescribed in Rule 4(a)(1) or (3) may
be ex parte unless the court requires other­
wise. If the motion is filed after the expiration
of the prescribed time, notice must be given to
the other parties in accordance with local
rules.
(C) No extension under this Rule 4(a)(5)
may exceed 30 days after the prescribed time
or 14 days after the date when the order
granting the motion is entered, whichever is
later.
(6) Reopening the Time to File an Appeal. The
district court may reopen the time to file an appeal
for a period of 14 days after the date when its order
to reopen is entered, but only if all the following
conditions are satisfied:
(A) the court finds that the moving party did
not receive notice under Federal Rule of Civil
Procedure 77(d) of the entry of the judgment
or order sought to be appealed within 21 days
after entry;
(B) the motion is filed within 180 days after
the judgment or order is entered or within 14
days after the moving party receives notice
under Federal Rule of Civil Procedure 77(d) of
the entry, whichever is earlier; and

App. 13
(C) the court finds that no party would be
prejudiced.
(7) Entry Defined.
(A) A judgment or order is entered for pur­
poses of this Rule 4(a):
(i) if Federal Rule of Civil Procedure
58(a) does not require a separate docu­
ment, when the judgment or order is en­
tered in the civil docket under Federal
Rule of Civil Procedure 79(a); or
(ii) if Federal Rule of Civil Procedure
58(a) requires a separate document,
when the judgment or order is entered in
the civil docket under Federal Rule of
Civil Procedure 79(a) and when the ear­
lier of these events occurs:
separate document, or
• 150 days have run from entry of the
judgment or order in the civil docket
under Federal Rule of Civil Proce­
dure 79(a).
(B) A failure to set forth a judgment or order
on a separate document when required by
Federal Rule of Civil Procedure 58(a) does not
affect the validity of an appeal from that judg­
ment or order.

App. 14
Fed. R. App. P. 15
Review or Enforcement of an Agency Order - How
Obtained; Intervention
[Text of subdivision (a) effective until December 1,
2016, absent contrary Congressional action.]
(a) Petition for Review; Joint Petition.
(1) Review of an agency order is commenced by
filing, within the time prescribed by law, a petition
for review with the clerk of a court of appeals au­
thorized to review the agency order. If their inter­
ests make joinder practicable, two or more persons
may join in a petition to the same court to review
the same order.
(2) The petition must:
(A) name each party seeking review either
in the caption or the body of the petition—us­
ing such terms as “et al.” “petitioners,” or “re­
spondents” does not effectively name the
parties;
(B) name the agency as a respondent (even
though not named in the petition, the United
States is a respondent if required by statute);
and
(C) specify the order or part thereof to be re­
viewed.
(3) Form 3 in the Appendix of Forms is a sug­
gested form of a petition for review.
(4) In this rule “agency” includes an agency,
board, commission, or officer; “petition for review”

App. 15
includes a petition to enjoin, suspend, modify, or
otherwise review, or a notice of appeal, whichever
form is indicated by the applicable statute.
(b) Application or Cross-Application to Enforce an
Order; Answer; Default.
(1) An application to enforce an agency order
must be filed with the clerk of a court of appeals
authorized to enforce the order. If a petition is filed
to review an agency order that the court may en­
force, a party opposing the petition may file a
cross-application for enforcement.
(2) Within 21 days after the application for en­
forcement is filed, the respondent must serve on
the applicant an answer to the application and file
it with the clerk. If the respondent fails to answer
in time, the court will enter judgment for the relief
requested.
(3) The application must contain a concise state­
ment of the proceedings in which the order was
entered, the facts upon which venue is based, and
the relief requested.
(c) Service of the Petition or Application. The circuit
clerk must serve a copy of the petition for review, or an
application or cross-application to enforce an agency
order, on each respondent as prescribed by Rule 3(d),
unless a different manner of service is prescribed by
statute. At the time of filing, the petitioner must:
(1) serve, or have served, a copy on each party
admitted to participate in the agency proceedings,
except for the respondents;

App. 16
(2) file with the clerk a list of those so served; and
(3) give the clerk enough copies of the petition or
application to serve each respondent.
(d) Intervention. Unless a statute provides another
method, a person who wants to intervene in a proceed­
ing under this rule must file a motion for leave to in­
tervene with the circuit clerk and serve a copy on all
parties. The motion—or other notice of intervention
authorized by statute—must be filed within 30 days af­
ter the petition for review is filed and must contain a
concise statement of the interest of the moving party
and the grounds for intervention.
(e) Payment of Fees. When filing any separate or joint
petition for review in a court of appeals, the petitioner
must pay the circuit clerk all required fees.

App. 17
APPENDIX D
132 STAT. 1510 PUBLIC LAW 115-195—JULY 7,
2018
An Act
To amend title 5, United States Code, to provide per­
manent authority for judicial review of certain Merit
Systems Protection Board decisions relating to whis­
tleblowers, and for other purposes.
Be it enacted by the Senate and House of Repre­
sentatives of the United States ofAmerica in Congress
assembled,
SECTION 1. SHORT TITLE.
This Act may be cited as the “All Circuit Review
Act”.
SEC. 2. JUDICIAL REVIEW OF MERIT SYSTEMS
PROTECTION BOARD DECISIONS
RELATING TO WHISTLEBLOWERS.
(a) In General.—Section 7703(b)(1)(B) of title 5,
United States Code, is amended by striking “During
the 5-year period beginning on the effective date of the
Whistleblower Protection Enhancement Act of 2012, a
petition” and inserting “A petition”.
(b) Director Review.—Section 7703(d)(2) of
such title is amended by striking “During the 5-year
period beginning on the effective date of the

App. 18
Whistleblower Protection Enhancement Act of 2012,
this paragraph” and inserting “This paragraph”.
(c) Retroactive Effective Date.—The amend­
ments made by this section shall take effect as if en­
acted on November 26, 2017.
Approved July 7, 2018.
LEGISLATIVE HISTORY—H.R. 2229:
HOUSE REPORTS: No. 115-337, Pt. 1 (Comm, on
Oversight and Government Re­
form).
SENATE REPORTS: No. 115-229 (Comm, on Home­
land Security and Governmental
Affairs).
CONGRESSIONAL RECORD:
Vol. 163 (2017): Oct. 11, considered and passed
House.
Vol. 164 (2018): June 12, considered and passed
Senate, amended.
June 22, House concurred in
Senate amendment.

App. 19
APPENDIX E
Calendar No. 377
115th Congress
2d Session

}

SENATE

{

Report
115-229

ALL CIRCUIT REVIEW ACT REPORT
REPORT
OF THE

COMMITTEE ON HOMELAND SECURITY AND
GOVERNMENTAL AFFAIRS
UNITED STATES SENATE
TO ACCOMPANY

H.R. 2229
TO AMEND TITLE 5, UNITED STATES CODE,
TO PROVIDE PERMANENT AUTHORITY FOR
JUDICIAL REVIEW OF CERTAIN MERIT
SYSTEMS PROTECTION BOARD DECISIONS
RELATING TO WHISTLEBLOWERS,
AND FOR OTHER PURPOSES
[SEAL]
April 12, 2018.—Ordered to be printed

79-010

U.S. GOVERNMENT PUBLISHING OFFICE
WASHINGTON : 2018

App. 20
COMMITTEE ON HOMELAND SECURITY
AND GOVERNMENTAL AFFAIRS
RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona
ROB PORTMAN, Ohio
RAND PAUL, Kentucky
JAMES LANKFORD,
Oklahoma
MICHAEL B. ENZI,
Wyoming
JOHN HOEVEN,
North Dakota
STEVE DAINES,
Montana

CLAIRE McCASKILL,
Missouri
THOMAS R. CARPER,
Delaware
HEIDI HEITKAMP,
North Dakota
GARY C. PETERS,
Michigan
MAGGIE HASSAN,
New Hampshire
KAMALA D. HARRIS,
California
DOUG JONES, Alabama

Christopher R. Hexon, Staff Director
Gabrielle D’Adamo Singer, Chief Counsel
Courtney J. Allen, Counsel
Margaret E. Daum, Minority Staff Director
Stacia M. Cardille, Minority Chief Counsel
Charles A. Moskowitz, Minority Senior
Legislative Counsel
Katherine C. Sybenga, Minority Counsel
Laura W. Kilbride, Chief Clerk

App. 21
Calendar No. 377
115th Congress
2d Session

}

SENATE

{

Report
115-229

ALL CIRCUIT REVIEW ACT
April 12, 2018.—Ordered to be printed
Mr. Johnson, from the Committee on
Homeland Security and Governmental Affairs,
submitted the following
REPORT
[To accompany H.R. 2229]
[Including cost estimate of the
Congressional Budget Office]
The Committee on Homeland Security and Gov­
ernmental Affairs, to which was referred the bill (H.R.
2229) to amend title 5, United States Code, to provide
permanent authority for judicial review of certain
Merit Systems Protection Board decisions relating to
whistleblowers, and for other purposes, reports favora­
bly thereon with an amendment and recommends that
the bill, as amended, do pass.
CONTENTS
Page
I.
II.

Purpose and Summary
Background and Need for the Legislation

1
2

App. 22
III. Legislative History......................................
IV. Section-by-Section Analysis.......................
V. Evaluation of Regulatory Impact..............
VI. Congressional Budget Office Cost Esti­
mate ...............................................................
VII. Changes in Existing Law Made by the Act,
as Reported...................................................

4
4
4
5
6

I. Purpose and Summary
The purpose of H.R. 2229, the All Circuit Review
Act, is to make permanent the authority to appeal final
orders or final decisions of the Merit Systems Protec­
tion Board (MSPB) regarding whistleblower retalia­
tion complaints to any U.S. Court of Appeals of
competent jurisdiction.
II. Background and the Need for Legislation
In 2012, Congress passed the Whistleblower Pro­
tection Enhancement Act (WPEA) to “strengthen the
rights of and protections for federal whistleblowers so
that they can more effectively help root out waste,
fraud, and abuse in the federal government.”1 A pri­
mary reason for the enactment of WPEA was that
“federal whistleblowers have seen their protections
diminish in recent years, largely as a result of a series
of decisions by the United States Court of Appeals for
1 S. Rep. No. 112-155 at 1 (2012). See also Whistleblower
Protection Enhancement Act of 2012, Pub. L. No. 112-199, 126
Stat. 1465 (2012).

App. 23
the Federal Circuit, which has exclusive jurisdiction
over many cases brought under the Whistleblower Pro­
tection Act.”2 While the Civil Service Reform Act of
1978 originally provided review of all Federal em­
ployee claims in any appropriate federal appeals court,
including whistleblower claims, the Federal Courts Im­
provement Act of 1981 granted the Federal Circuit ex­
clusive jurisdiction of appeals of MSPB final orders.3
The WPEA reinstated “all-circuit review”, authorizing
Federal employee whistleblowers to file petitions for
review of the final order or decision of the MSPB in the
Federal Circuit or in any court of appeals of competent
jurisdiction.4
Congress considered multiple reasons for author­
izing all-circuit review for Federal employee whistle­
blower claims in WPEA. First, Congress agreed with
the argument “In the Federal Circuit no other judges
critically review the decisions of the Court, no ‘split in
the circuits’ can ever occur, and thus, federal employ­
ees are denied the most important single procedure
which holds appeals court judges reviewable and ac­
countable.”5 Congress also noted that “a number of

2 Id. at 1-2.
3 Civil Service Reform Act of 1978, Pub. L. No. 95-454, §205,
92 Stat. 1111, 1143 (1978); Federal Courts Improvements Act of
1981, Pub. L. No. 97-164, § 127, 96 Stat. 25, 45 (1982).
4 Whistleblower Protection Enhancement Act, supra note 1,
at § 108.
5 S. Rep. No. 112—155 at 11 (citing The Federal Employee
Protection of Disclosures Act: Amendments to the Whistleblower
Protection Act: Hearing Before the S. Comm, on Governmental

App. 24
federal statutes already allow cases involving rights
and protections of federal employees, or involving
whistleblowers, to appeal to courts of appeals across
the country.”6 Congress further considered that other
types of whistleblower claims enjoy a multi-circuit ap­
pellate review process, including claims under the
False Claims Act, the Resolution Trust Corporation
Completion Act, the Federal Deposit Insurance Corpo­
ration Improvement Act, the Clean Air Act, the Sarbanes-Oxley Act, and the American Recovery and
Reinvestment Act.7 Congress concluded that “the ra­
tionale for the Federal Circuit’s subject matter-based
jurisdiction—the need for specialization in a particular
area of law—does not apply in whistleblower jurispru­
dence.”8
WPEA authorized the all-circuit review for Fed­
eral whistleblower claims for two years. In 2014, before
the expiration, Congress extended the all-circuit re­
view authority for an additional three years.9 Since few
cases had yet to be resolved under the all-circuit re­
view authority of WPEA, Congress extended the

Affairs, 108th Cong. 108^414 (2003) (statement of Stephen Kohn,
Chairman, National Whistleblower Center)).
6 S. Rep. No. 112-155 at 11.
7 Id. at 12.
Id.
9 All Circuit Review Extension Act, Pub. L. No. 113-170,128
Stat. 1894 (2014).

App. 25
authority “to effectively assess its impact.”10 That au­
thority expired on November 27, 2017.
WPEA also authorized all-circuit review for peti­
tions for review filed by the Director of the Office of
Personnel Management (OPM) of MSPB decisions re­
garding Federal employee whistleblower retaliation
complaints.11 The Civil Service Reform Act of 1978 first
authorized the OPM Director to petition to the U.S.
Court of Appeals for the District of Columbia for re­
view of a MSPB decision or order if the OPM Director
determined “the Board erred in interpreting a civil ser­
vice law, rule, or regulation affecting personnel man­
agement and that the Board’s decision will have a
substantial impact on a civil service law, rule, regula­
tion, or policy directive.”12 The OPM Director could only
petition for review if the OPM Director intervened in
the matter when it was before MSPB or if the OPM
Director petitioned MSPB for reconsideration of its de­
cision and was denied.13 These petitions for review by
the OPM Director were also transferred to the jurisdic­
tion of the Federal Circuit under the Federal Courts
Improvement Act of 1981.14 WPEA authorized all-cir­
cuit review for the OPM Director to petition for review

10 H. Rep. No. 113-519 (2014).
11 Whistleblower Protection Enhancement Act, supra note 1,
at § 108.
12 Civil Service Reform Act, supra note 4, at § 205.
13 Id.
14 Federal Courts Improvements Act, supra note 4.

App. 26
of a MSPB order or decision regarding a Federal em­
ployee whistleblower retaliation complaint.15
From October 1994 until WPEA’s enactment in
2012, the Federal Circuit ruled favorably for Federal
employee whistleblowers on only three out of 243 ap­
peals considered.16 Between enactment of all-circuit re­
view authority in WPEA in 2012 and March 11, 2018,
the Federal Circuit heard 31 appeals of Federal em­
ployee whistleblowers and ruled favorably for the
whistleblower in just one of those appeals.17 With all­
circuit review authority, other circuits heard six ap­
peals from Federal employee whistleblowers, ruling fa­
vorably for the whistleblower in two of those appeals.18
The other circuits’ rulings under the all-circuit review
authority demonstrate that there is no need for one
court—the Federal Circuit—to specialize in whistle­
blower protection laws for Federal employees.
In one case under all-circuit review authority, the
Seventh Circuit differed from the Federal Circuit in
the interpretation of a requirement for appeal under

15 Whistleblower Protection Enhancement Act, supra note 1,
at § 108.
16 Memorandum from Tom Devine, Government Accounta­
bility Project, on Federal Circuit Whistleblower Decisions Since
Passage of 1994 Amendments (Jan. 30, 2017).
17 Id.
18 Memorandum from Tom Devine, Government Accounta­
bility Project, on All Circuits Whistleblower Decisions Since
WPEA Passage (Aug. 26, 2017).

App. 27
the Whistleblower Protection Act.19 This opinion by the
Seventh Circuit provides a “split in the circuit” of an
interpretation of a statutory requirement under Fed­
eral whistleblower protection laws. Such a “split in the
circuit” was intended to occur with all-circuit review
authority, allowing courts to critically review each
other’s decisions on Federal employee whistleblower
protection laws and increase accountability in their in­
terpretations of the laws.
This Act would permanently authorize the all-cir­
cuit review authority provided by WPEA for Federal
employee whistleblower claims. The Act would also
permanently authorize the all-circuit review authority
for the OPM Director to petition for review of a MSPB
final order concerning a Federal employee whistle­
blower retaliation complaint. Although the authority
expired on November 27, 2017, this Act would apply
retroactively, as if enacted on November 27, 2017.
III.

Legislative History

H.R. 2229 was introduced on April 28, 2017, by
Representatives Elijah Cummings (D-MD-7) and
Blake Farenthold (R-TX-27). The Act was passed by
the House of Representatives on October 11, 2017, by
voice vote. The Act was received in the Senate and re­
ferred to the Committee on Homeland Security and
Governmental Affairs on October 16, 2017.

19 Delgado v. Merit Sys. Prot. Bd., 880 F. 3d 913 (7th Cir.
2018).

App. 28
The Committee considered H.R. 2229 at a busi­
ness meeting on February 14, 2018. During the busi­
ness meeting, an amendment offered by Chairman
Johnson was adopted. The amendment retroactively
applied the effective date of the Act to November 27,
2017, when the authority expired. Both the amend­
ment and the legislation as modified by the amend­
ment were passed by voice vote en bloc with Senators
Johnson, Portman, Paul, Lankford, Enzi, Hoeven,
Daines, McCaskill, Heitkamp, Peters, Hassan, Harris,
and Jones present.
IV.

Section-by-Section Analysis
as Reported

of the

Act,

Section 1. Short title
This section establishes the short title of the Act
as the “All Circuit Review Act”.
Section 2. Judicial review of Merit Systems Protec­
tion Board decisions relating to whistleblowers
Subsection (a) makes permanent the authority to
appeal MSPB final orders or final decisions regarding
whistleblower complaints to any U.S. Court of Appeals
of competent jurisdiction.
Subsection (b) makes permanent the authority for
the Director of the Office of Personnel Management to
appeal the MSPB final disposition of a whistleblower
complaint to a U.S. Court of Appeals. The Director can
only make such an appeal if the Director believes

App. 29
MSPB erred in its interpretation of civil service law,
rule, regulation, or policy directive, and if the Director
believes the MSPB disposition will have a substantial
impact on a civil service law, rule, regulation, or policy
directive.
V.

Evaluation

of

Regulatory Impact

Pursuant to the requirements of paragraph 11(b)
of rule XXVI of the Standing Rules of the Senate, the
Committee has considered the regulatory impact of
this Act and determined that the Act will have no reg­
ulatory impact within the meaning of the rules. The
Committee agrees with the Congressional Budget Of­
fice’s statement that the Act contains no intergovern­
mental or private-sector mandates as defined in the
Unfunded Mandates Reform Act (UMRA) and would
impose no costs on state, local, or tribal governments.
VI.

Congressional Budget Office Cost Estimate
U.S. Congress,
Congressional Budget Office,
Washington, DC, February 22, 2018.

Hon. Rob Johnson,
Chairman, Committee on Homeland Security and Gov­
ernmental Affairs, U.S. Senate, Washington, DC.
Dear Mr. Chairman: The Congressional Budget
Office has prepared the enclosed cost estimate for H.R.
2229, the All Circuit Review Act.

App. 30
If you wish further details on this estimate, we will
be pleased to provide them. The CBO staff contact is
Janani Shankaran.
Sincerely,
Keith Hall,
Director.
Enclosure.
H.R. 2229-All Circuit Review Act
H.R. 2229 would permanently extend (and retro­
actively apply) the authority for federal employees to
appeal Merit Systems Protection Board (MSPB) deci­
sions regarding whistleblower cases in any federal court,
instead of only the U.S. Court of Appeals in Washing­
ton, D.C. Under current law, the authority to file an ap­
peal in any federal court expired in December of 2017.
Using information from the MSPB and the Admin­
istrative Office of the U.S. Courts, CBO expects that
permanently allowing appeals to be filed in any federal
circuit would lead to a small increase in the adminis­
trative burden of those and other federal agencies. Be­
cause many agency offices are located in or near
Washington, D.C., that would include attorneys’ travel
costs and costs associated with researching regional
circuit courts’ rules and procedures. However, based on
the number of such cases in recent years, CBO esti­
mates that those costs would not be significant.
Enacting H.R. 2229 could affect direct spending
by agencies that are not funded through annual appro­
priations; therefore, pay-as-you-go procedures apply.

App. 31
However, CBO estimates that the net effects would be
insignificant for each year. Enacting the bill would not
affect revenues.
CBO estimates that enacting H.R. 2229 would not
significantly increase net direct spending or on-budget
deficits in any of the four consecutive 10-year periods
beginning in 2028.
H.R. 2229 contains no intergovernmental or pri­
vate-sector mandates as defined in the Unfunded Man­
dates Reform Act.
On July 18,2017, CBO transmitted a cost estimate
for H.R. 2229, the All Circuit Review Act, as ordered
reported by the House Committee on Oversight and
Government Reform on May 2,2017. The bills are sim­
ilar and CBO’s estimates of their budgetary effects are
the same.
The CBO staff contact for this estimate is Janani
Shankaran. The estimate was approved by H. Samuel
Papenfuss, Deputy Assistant Director for Budget
Analysis.
VII. Changes in Existing Law Made by the Act,
as Reported
In compliance with paragraph 12 of rule XXVI of
the Standing Rules of the Senate, changes in existing
law made by the Act, as reported, are shown as follows:
(existing law proposed to be omitted is enclosed in
brackets, new matter is printed in italic, and existing
law in which no change is proposed is shown in roman):

App. 32
UNITED STATES CODE
*

*

*

*

*

*

*

TITLE 5—GOVERNMENT ORGANIZATION
AND EMPLOYEES
*

*

*

*

*

*

*

*

*

PART III—EMPLOYEES
*

*

*

*

*

Subpart F—Labor-Management and
Employee Relations
*

*

*

*

*

*

*

*

*

CHAPTER 77—APPEALS
*

*

*

*

*

SEC. 7703. JUDICIAL REVIEW OF DECISIONS OF
THE MERIT SYSTEMS PROTECTION BOARD
(a)

* * *

(b)

* * *

(1)

* * *

(A)

* * *

(B) [During the 5-year period beginning
on the effective date of the Whistleblower Pro­
tection Enhancement Act of 2012, a petition]
A petition to review the final order or final de­
cision of the Board that raises no challenges
to the Board’s disposition of allegations of a
prohibited personnel practice described in
section 2302(b) other than practices described
in section 2302(b)(8), or 2302(b)(9)(A)(i), (B),

App. 33
(C), or (D) shall be filed in the United States
Court of Appeals for the Federal Circuit or
any court of appeals of competent jurisdiction.
Notwithstanding any other provision of law,
any petition for review shall be filed within 60
days after the Board issues notice of the final
order or decision of the Board.
(2)

(c)

* **

(d)

* * *

(1)

***

* * *

(2) [During the 5-year period beginning on
the effective date of the Whistleblower Protec­
tion Enhancement Act of 2012, this paragraph]
This paragraph shall apply to any review ob­
tained by the Director of the Office of Personnel
Management that raises no challenge to the
Board’s disposition of allegations of a prohibited
personnel practice described in section 2302(b)
other than practices described in section 2302(b),
or 2302(b)(9)(A)(i), (B), (C), or (D). The Director
may obtain review of any final order or decision of
the Board by filing, within 60 days after the Board
issues notice of the final order or decision of the
Board, a petition for judicial review in the United
States Court of Appeals for the Federal Circuit or
any court of appeals of competent jurisdiction if
the Director determines, in the discretion of the
Director, that the Board erred in interpreting a
civil service law, rule, or regulation affecting per­
sonnel management and that the Board’s decision
will have a substantial impact on a civil service

App. 34
law, rule, regulation, or policy directive. If the Di­
rector did not intervene in a matter before the
Board, the Director may not petition for review of
a Board decision under this section unless the Di­
rector first petitions the Board for a reconsidera­
tion of its decision, and such petition is denied. In
addition to the named respondent, the Board and
all other parties to the proceedings before the
Board shall have the right to appear in the pro­
ceeding before the court of appeals. The granting
of the petition for judicial review shall be at the
discretion of the court of appeals.

App. 35
APPENDIX F
115th Congress
HOUSE OF
REPRESENTATIVES
1st Session

{

Rept. 115-337
Part 1

ALL CIRCUIT REVIEW ACT
October 2, 2017.—Committed to the Committee
of the Whole House on the State of the Union and
ordered to be printed
Mr. Gowdy, from the Committee on
Oversight and Government Reform,
submitted the following
REPORT
[Including cost estimate of the
Congressional Budget Office]
The Committee on Oversight and Government
Reform, to whom was referred the bill (H.R. 2229) to
amend title 5, United States Code, to provide perma­
nent authority for judicial review of certain Merit
Systems Protection Board decisions relating to whis­
tleblowers, and for other purposes, having considered
the same, report favorably thereon without amend­
ment and recommend that the bill do pass.

App. 36
CONTENTS
Page
Committee Statement and Views

2

Section-by-Section........................

5

Explanation of Amendments......

5

Committee Consideration............

5

Roll Call Votes

5

Correspondence.......................................................

6

Application of Law to the Legislative Branch....

8

Statement of Oversight Findings and Recom­
mendations of the Committee...........................

8

Statement of General Performance Goals and
Objectives.............................................................

8

Duplication of Federal Programs.........................

8

Disclosure of Directed Rule Makings..................

8

Federal Advisory Committee Act..........................

8

Unfunded Mandates Statement...........................

8

Earmark Identification..........................................

9

Committee Estimate...............................................

9

Budget Authority and Congressional Budget Of­
fice Cost Estimate...............................................

9

Changes in Existing Law Made by the Bill, as
Reported............................................................... 10

App. 37
Committee Statement and Views
PURPOSE AND SUMMARY

H.R. 2229, the All Circuit Review Act, makes per­
manent the all circuit review pilot program, which al­
lows whistleblowers to appeal decisions of the Merit
Systems Protection Board (MSPB) to any Federal Cir­
cuit.
BACKGROUND AND NEED FOR LEGISLATION

On November 27, 2012, the Whistleblower Protec­
tion Enhancement Act of 2012 (WPEA) became law.1
This landmark whistleblower law was the first major
update to the Whistleblower Protection Act since 1994.
Among the many changes established by the
WPEA was the creation of a two-year pilot program to
allow the appeal of whistleblower cases from the Merit
Systems Protection Board (MSPB) to any federal cir­
cuit court of appeals.2 Prior to the WPEA, exclusive ju­
risdiction over all appeals from the MSPB resided with
the U.S. Court of Appeals for the Federal Circuit (Fed­
eral Circuit), which was created in 1982, three-and-ahalf years after the Civil Service Reform Act of 1978
(CSRA) established the MSPB.3
1 Whistleblower Prot. Enhancement Act of 2012, Pub. L. No.
112-199,126 Stat. 1465 (2012).
2 Whistleblower Prot. Enhancement Act of 2012, Pub. L. No.
112-199 § 108, 126 Stat. 1465, 1469 (2012).
3 The Federal Courts Improvement Act of 1982 merged the
U.S. Court of Customs and Patent Appeals with the U.S. Court of
Claims to create the U.S. Court of Appeals for the Federal Circuit,

App. 38
Congress has repeatedly criticized both the MSPB
and the Federal Circuit’s interpretation of the whistle­
blower protections implemented by and subsequent to
the CSRA. As part of the groundwork that ultimately
resulted in the Whistleblower Protection Act of 1989
(WPA), the House Committee on Post Office and Civil
Service noted in 1987: “The Special Counsel’s ability to
secure relief for individuals who have been victims of
prohibited personnel practices has been limited be­
cause the MSPB has construed the law relating to the
protection of Federal employees quite narrowly.”4 The
report noted the Federal Circuit provided little better
recourse: “Despite the heavy MSPB caseload, Federal
Circuit judges have a general inexperience with fed­
eral employee case law.”5 Several of the changes and
clarifications in the WPA as ultimately passed were di­
rectly intended to reverse MSPB and Federal Circuit
actions Congress considered inconsistent with the
CSRA.
Five years later, Congress made additional clar­
ifications as part of reauthorizing the MSPB and
the Office of Special Counsel.6 The Senate report
and gave the Federal Circuit jurisdiction over all appeals from the
MSPB except anti-discrimination appeals. Fed. Courts Improve­
ment Act of 1982, Pub. L. No. 97-164 § 127, 96 Stat. 25, 38 (1982);
see also Civil Serv. Reform Act of 1978, Pub. L. No. 95—454, 92
Stat. 1111 (1978).
4 H. Comm, on Post Office & Civ. Serv., Whistleblower
Protection Act of 1987 25, 100th Cong. (1987) (H. Rep. 100274).
5 Id. at 26.
6 Pub. L. No. 103-424, 108 Stat. 4361 (1994).

App. 39
accompanying the 1994 reauthorization noted the Fed­
eral Circuit’s failure to interpret the legislative history
of the WPA correctly.7 The corresponding bill report
from the House Committee on Post Office and Civil
Service, which was reorganized as part of this Commit­
tee the next year, further stated:
[T]he statistical record indicates that the
MSPB and Federal Circuit Court of Appeals
have not been favorable to Federal whistle­
blowers. In the first two years after the Act’s
passage, whistleblowers won approximately
20% of Merit Systems Protection Board deci­
sions on the merits. Since FY 1991, however,
that rate has dropped to 5%, far lower than
analogous statutes with tougher burdens of
proof administered by the Department of La­
bor. Instead of restoring balance, the U.S.
Court of Appeals for the Federal Circuit has
been more hostile than the Board. Since its
1982 creation, in reported decisions employ­
ees have prevailed only twice on the merits
with the whistleblower defense. The commit­
tee received extensive testimony at hearings
that the MSPB and Federal Circuit have lost
credibility with the practicing bar for civil ser­
vice cases. Due to the MSPB’s failure to con­
sistently enforce standards in the Federal
Rules of Procedure or the Federal Rules of

7 S. Comm, on Governmental Affairs, to Authorize Ap­
propriations for the United States Office of Special Coun­
sel, the Merit Systems Protection Board, and for Other
PURPOSES 8, 103rd Cong. (1994) (S. Rep. 103-358).

App. 40
Evidence, the Board has not earned respect as
a fair forum even on procedural grounds.8
The report identified a wide variety of areas where the
MSPB and Federal Circuit had violate [d] the WPA’s
clear mandate [established] through statutory provi­
sions or legislative intent.”9
Although Congress updated the law in 1989 and
1994 in response to erroneous MSPB and Federal Cir­
cuit decisions, the 1994 House report noted: “The com­
mittee recognizes that realistically it is impossible to
overturn destructive precedents as fast as they are is­
sued by the MSPB or Federal Circuit.”10 That predic­
tion proved prescient, as Congress did not make any
substantive clarifications for nearly twenty years re­
garding the WPA. The bill reports accompanying the
WPEA in 2012 made clear this was not due to a lack of
erroneous MSPB and Federal Circuit decisions in the
interim. The Senate Committee on Homeland Security
and Governmental Affairs report stated:
Unfortunately, federal whistleblowers
have seen their protections diminish in recent
years, largely as a result of a series of deci­
sions by the United States Court of Appeals
for the Federal Circuit, which has exclusive
jurisdiction over many cases brought under
the Whistleblower Protection Act (WPA). . . .
8 H. Comm, on Post Office & civ. Serv., Reauthorization of
Office of Special Counsel 17, 103rd Cong. (1994) (H. Rep.
103-769).
9 Id. at 18.
10 Id.

the

App. 41
Despite the clear legislative history and the
plain language of the 1994 amendments, the
Federal Circuit and the MSPB have continued
to undermine the WPA’s intended meaning by
imposing limitations on the kinds of disclo­
sures by whistleblowers that are protected
under the WPA.11
This Committee concurred that “the Federal Cir­
cuit has often times misinterpreted Congressional
intent when it comes to whistleblowers.”12 The Com­
mittee’s WPEA bill report noted: “Unfortunately, . . .
the U.S. Court of Appeals for the Federal District
has eroded whistleblower protections over the years
through a series of decisions. This has adversely im­
pacted well-intentioned whistleblowers and led to an
unwillingness by many to step forward.”13 Subsequent
Committee reports noted the Federal Circuit’s “over­
whelming record of ruling against whistleblowers—a
record that included a series of questionable interpre­
tations of the law.”14
This experience since the CSRA, particularly from
1994 to 2012, informed Congress’s decision to establish
the all circuit review pilot program with the WPEA.
11 S. Comm, on Homeland Sec. & Governmental Affairs,
Whistleblower Protection Enhancement Act of 2012 1-2, 4-5
112th Cong. (2012) (S. Rep. 112-155).
12 H. Comm, on Oversight & Gov’t Reform, Whistleblower
Protection Enhancement Act of 2011 6,112th Cong. (2012) (H.
Rep. 112-508).
13 Id. at 6.
14 H. Comm, on Oversight & Gov’t Reform, All Circuit Re­
view Extension Act 2, 113th Cong. (2014) (H. Rep. 113-519).

App. 42
Despite innumerable significant public policy priori­
ties which routinely compete for the attention of poli­
cymakers, Congress has repeatedly sent a consistent
message regarding its intent that the WPA protect fed­
eral employees who blow the whistle. However, relying
on regular clarifying revisions is unrealistic. Despite
thousands of man-hours that may go into bringing par­
ticular legislation to the floor of the House or Senate, a
number of obstacles may preclude enactment into law
in any given Congress. Thus, just as courts rely on the
doctrines of ripeness and exhaustion of remedies to
conserve judicial resources, so too Congress often con­
serves its resources by allowing statutory questions to
play out in the court system. Eliminating the Federal
Circuit’s monopoly on whistleblower cases makes it
possible for more courts to hear these important issues
and for the Supreme Court to consider provisions of
the WPA in the event of a circuit split.
On September 26, 2014, Congress passed the All
Circuit Review Extension Act, introduced by Ranking
Member Elijah Cummings (D-MD) with then-Chairman Darrell Issa (R-CA) and Representatives Blake
Farenthold (R-TX), Gerald Connolly (D-VA), and
Chris Van Hollen (D-MD) as original cosponsors.15 The
bill extended the initial two-year pilot program by

15 All Circuit Review Extension Act, Pub. L. No. 113-170,128
Stat. 1894 (2014).

App. 43
three years, allowing additional time to assess the pilot
program’s impact.16
During a December 2015 hearing to reauthorize
the MSPB, thenMSPB Chairman Susan Grundmann
stated: “The MSPB is not aware of any ‘significant
problems’ resulting from all-circuit review.”17 As of Feb­
ruary 2016, the MSPB indicated there had been six
decisions in whistleblower cases issued by federal
appeals courts other than the Federal Circuit.18 By
February 2017, there had only been 29 such cases,
according to data provided by the MSPB.
LEGISLATIVE HISTORY

On April 28, 2017, Ranking Member Elijah Cum­
mings (D-MD) introduced H.R. 2229, with Representa­
tive Blake Farenthold (R-TX). H.R. 2229 was referred
to the Committee on Oversight and Government Re­
form, as well as the Committee on the Judiciary. The
Committee on Oversight and Government Reform con­
sidered H.R. 2229 at a business meeting on May 2,
2017 and ordered the bill favorably reported by voice
vote.

16 See H. Comm, on Oversight & Gov’t Reform, All Circuit
Review Extension Act, 113th Cong. (2014) (H. Rep. 113-519).
17 Merit Sys. Prot. Bd., Office of Gov’t Ethics, & Office of Spe­
cial Counsel Reauthorization: Hearing before the H. Subcomm. on
Gov’t Operations, 114th Cong. (2015) (Merit Sys. Prot. Bd. re­
sponses to Questions for the Record, at 1).
18 Id.

App. 44
Section-by-Section
Section 1. Short title
This short title is the “All Circuit Review Act.”
Section 2. Judicial review of merit systems protection
board decisions relating to whistleblowers
This section makes permanent the five-year pilot
program allowing all circuit review.
Specifically, subsection (a) allows any petitioner to
appeal to any court of appeals of competent jurisdic­
tion so long as the appeal raises no challenge to a Merit
Systems Protection Board decision other than its dis­
position of reprisal allegations.
Similarly, subsection (b) allows the Director of the
Office of Personnel Management to do the same.
Explanation of Amendments
No amendments to H.R. 2229 were offered or
adopted during Full Committee consideration of the
bill.
Committee Consideration
On May 2, 2017, the Committee met in open ses­
sion and ordered reported favorably the bill, H.R. 2229,
by voice vote, a quorum being present.

App. 45
Roll Call Votes
No roll call votes were requested or conducted dur­
ing Full Committee consideration of H.R. 2229.

Correspondence
ONE HUNDRED FIFTEENTH CONGRESS

Congress of the United States
House of Representatives
COMMITTEE ON THE JUDICIARY
2138 Rayburn House Office Building
Washington, DC 20515-6216
(202) 225-3951
http?//www.house.gov/judiciary
[Names Omitted In Printing]
September 22, 2017
The Honorable Trey Gowdy
Chairman
Committee on Oversight and Government Reform
2157 Rayburn House Office Building
Washington, D.C. 20515
Dear Chairman Gowdy,
I write with respect to HR. 2229, the “All Circuit
Review Act.” As a result of your having consulted with
us on provisions within H.R. 2229 that fall within the
Rule X jurisdiction of the Committee on the Judiciary,
I forego any further consideration of this bill so that it
may proceed expeditiously to the House floor for con­
sideration.

App. 46
The Judiciary Committee takes this action with
our mutual understanding that by foregoing consider­
ation of H.R. 2229 at this time, we do not waive any
jurisdiction over subject matter contained in this or
similar legislation and that our committee will be ap­
propriately consulted and involved as this bill or simi­
lar legislation moves forward so that we may address
any remaining issues in our jurisdiction. Our commit­
tee also reserves the right to seek appointment of an
appropriate number of conferees to any House-Senate
conference involving this or similar legislation, and
asks that you support any such request.
I would appreciate a response to this letter con­
firming this understanding with respect to H.R. 2229
and would ask that a copy of our exchange of letters on
this matter be included in the Congressional Record
during floor consideration of H.R. 2229.
Sincerely,
/s/ Bob Goodlatte
Bob Goodlatte Chairman
cc: The Honorable John Conyers, Jr.
The Honorable Elijah Cummings
The Honorable Paul Ryan, Speaker
The Honorable Thomas Wickham, Jr.,
Parliamentarian

App. 47
ONE HUNDRED FIFTEENTH CONGRESS

Congress of the United States
House of Representatives
COMMITTEE ON OVERSIGHT AND
GOVERNMENT REFORM
2157 Rayburn House Office Building
Washington, DC 20515-6143
Majority (202) 225-5074
Minority (202) 225-5051
http ://www. over sight, house. gov
[Names Omitted In Printing]
September 22, 2017
The Honorable Bob Goodlatte
Chairman, Committee on Armed Services
U.S. House of Representatives
Dear Mr. Chairman:
Thank you for your letter regarding H.R. 2229, the
All Circuit Review Act. As you noted, certain provisions
of the bill fall within the jurisdiction of the Committee
on the Judiciary. I appreciate your willingness to forego
action on the bill in the interest of expediting this leg­
islation for floor consideration. I agree that foregoing
consideration of the bill in no way diminishes or alters
the jurisdiction of the Committee on the Judiciary with
respect to the appointment of conferees or to any fu­
ture jurisdictional claim over the subject matters con­
tained in the bill or any similar legislation.
I will include a copy of our letter exchange on
H.R. 2229 in the bill report filed by the Committee on
Oversight and Government Reform, as well as in the

App. 48
Congressional Record during floor consideration, to
memorialize our understanding.
Thank you for your assistance with this matter.
Sincerely,
/s/ Trey Gowdy
Trey Gowdy
cc: The Honorable Paul D. Ryan, Speaker
The Honorable Elijah E. Cummings, Ranking
Member, Committee on Oversight and
Government Reform
The Honorable John Conyers, Jr., Ranking
Member, Committee on the Judiciary
The Honorable Thomas J. Wickham,
Parliamentarian

Application of Law to the Legislative Branch
Section 102(b)(3) of Public Law 104-1 requires a
description of the application of this bill to the legisla­
tive branch where the bill relates to the terms and con­
ditions of employment or access to public services and
accommodations. This bill amends title 5, United
States Code, to provide permanent authority for judi­
cial review of certain Merit Systems Protection Board
decisions relating to whistleblowers. As such, this bill
does not relate to employment or access to public ser­
vices and accommodations.

App. 49
Statement of Oversight Findings and
Recommendations of the Committee
In compliance with clause 3(c)(1) of rule XIII and
clause (2)(b)(l) of rule X of the Rules of the House of
Representatives, the Committee’s oversight findings
and recommendations are reflected in the descriptive
portions of this report.
STATEMENT OF GENERAL PERFORMANCE
GOALS AND OBJECTIVES
In accordance with clause 3(c)(4) of rule XIII of the
Rules of the House of Representatives, the Commit­
tee’s performance goal or objective of this bill is to
amend title 5, United States Code, to provide perma­
nent authority for judicial review of certain Merit
Systems Protection Board decisions relating to whis­
tleblowers.
Duplication of Federal Programs
No provision of this bill establishes or reauthor­
izes a program of the Federal Government known to be
duplicative of another Federal program, a program
that was included in any report from the Government
Accountability Office to Congress pursuant to section
21 of Public Law 111-139, or a program related to a
program identified in the most recent Catalog of Fed­
eral Domestic Assistance.

App. 50
Disclosure of Directed Rule Makings
The Committee estimates that enacting this bill
does not direct the completion of any specific rule ma­
kings within the meaning of section 551 or title 5,
United States Code.
Federal Advisory Committee Act
The Committee finds that the legislation does not
establish or authorize the establishment of an advisory
committee within the definition of Section 5(b) of the
appendix to title 5, United States Code.
Unfunded Mandates Statement
Section 423 of the Congressional Budget and Im­
poundment Control Act (as amended by Section 101(a)(2)
of the Unfunded Mandate Reform Act, RL. 104-4) re­
quires a statement as to whether the provisions of the
reported include unfunded mandates. In compliance with
this requirement, the Committee has included below a
letter received from the Congressional Budget Office.
Earmark Identification
This bill does not include any congressional ear­
marks, limited tax benefits, or limited tariff benefits as
defined in clause 9 of rule XXI.
Committee Estimate
Clause 3(d)(1) of rule XIII of the Rules of the
House of Representatives requires an estimate and a

App. 51
comparison by the Committee of the costs that would
be incurred in carrying out this bill. However, clause
3(d)(2)(B) of that Rule provides that this requirement
does not apply when the Committee has included in its
report a timely submitted cost estimate of the bill pre­
pared by the Director of the Congressional Budget Of­
fice under section 402 of the Congressional Budget Act
of 1974, which the Committee has included below.
Budget Authority and Congressional Budget
Office Cost Estimate
With respect to the requirements of clause 3(c)(2)
of rule XIII of the Rules of the House of Representa­
tives and section 308(a) of the Congressional Budget
Act of 1974 and with respect to requirements of clause
(3)(c)(3) of rule XIII of the Rules of the House of Rep­
resentatives and section 402 of the Congressional
Budget Act of 1974, the Committee has received the
following cost estimate for this bill from the Director of
Congressional Budget Office:
U.S. Congress,
Congressional Budget Office,
Washington, DC, July 18, 2017.
Hon. Trey Gowdy,
Chairman, Committee on Oversight and Government
Reform, House of Representatives, Washington, DC.
Dear Mr. Chairman: The Congressional Budget
Office has prepared the enclosed cost estimate for H.R.
2229, the All Circuit Review Act.

App. 52
If you wish further details on this estimate, we will
be pleased to provide them. The CBO staff contact is
Janani Shankaran.
Sincerely,
Mark P. Hadley,
(For Keith Hall).
Enclosure.
H.R. 2229-All Circuit Review Act
H.R. 2229 would permanently extend the author­
ity for federal employees to appeal a Merit Systems
Protection Board (MSPB) decision regarding whistle­
blower cases at any federal court, instead of only at the
U.S. Court of Appeals in Washington, D.C. Under cur­
rent law, the authority to appeal at any federal court
expires in December 2017.
Based on information from the MSPB and the Ad­
ministrative Office of the U.S. Courts, CBO expects
that allowing appeals to be filed in any federal circuit
on a permanent basis would lead to a small increase in
the administrative burden of those and other federal
agencies. Because many agency offices are located in
the Washington, D.C. area, this would include attorney
travel costs and costs associated with researching re­
gional circuit courts’ rules and procedures. However,
based upon the number of such cases in 2016, CBO
estimates that those costs would not be significant.
Enacting H.R. 2229 could affect direct spending
by agencies not funded through the annual appro­
priations (such as the Tennessee Valley Authority);

App. 53
therefore, pay-as-you-go procedures apply. However,
CBO estimates that the net effects would be insignifi­
cant for each year. Enacting the bill would not affect
revenues.
CBO estimates that enacting H.R. 2229 would not
significantly increase net direct spending or on-budget
deficits in any of the four consecutive 10-year periods
beginning in 2028.
H.R. 2229 contains no intergovernmental or pri­
vate-sector mandates as defined in the Unfunded Man­
dates Reform Act and would impose no costs on state,
local, or tribal governments.
The CBO staff contact for this estimate is Janani
Shankaran. The estimate was approved by H. Samuel
Papenfuss, Deputy Assistant Director for Budget
Analysis.
Changes in Existing Law Made by the Bill,
as Reported
In compliance with clause 3(e) of rule XIII of the
Rules of the House of Representatives, changes in ex­
isting law made by the bill, as reported, are shown as
follows (existing law proposed to be omitted is enclosed
in black brackets, new matter is printed in italic, and
existing law in which no change is proposed is shown
in roman):

App. 54
TITLE 5, UNITED STATES CODE
*

*

*

*

*

*

*

*

*

PART III—EMPLOYEES
*

*

*

*

*

SUBPART F—LABOR-MANAGEMENT AND
EMPLOYEE RELATIONS
*

*

*

*

*

*

*

*

*

CHAPTER 77—APPEALS
*

*

*

*

*

§ 7703. Judicial review of decisions of the Merit
Systems Protection Board
(a)(1) Any employee or applicant for employment
adversely affected or aggrieved by a final order or de­
cision of the Merit Systems Protection Board may ob­
tain judicial review of the order or decision.
(2) The Board shall be named respondent in any
proceeding brought pursuant to this subsection, unless
the employee or applicant for employment seeks re­
view of a final order or decision on the merits on the
underlying personnel action or on a request for attor­
ney fees, in which case the agency responsible for tak­
ing the personnel action shall be the respondent.
(b)(1)(A) Except as provided in subparagraph (B)
and paragraph (2) of this subsection, a petition to re­
view a final order or final decision of the Board shall
be filed in the United States Court of Appeals for the
Federal Circuit. Notwithstanding any other provision
of law, any petition for review shall be filed within 60

App. 55
days after the Board issues notice of the final order or
decision of the Board.
(B) [During the 5-year period beginning on the
effective date of the Whistleblower Protection En­
hancement Act of 2012, a petition] A petition to review
a final order or final decision of the Board that raises
no challenge to the Board’s disposition of allegations of
a prohibited personnel practice described in section
2302(b) other than practices described in section
2302(b)(8), or 2302(b)(9) (A)(i), (B), (C), or (D) shall be
filed in the United States Court of Appeals for the Fed­
eral Circuit or any court of appeals of competent juris­
diction. Notwithstanding any other provision of law,
any petition for review shall be filed within 60 days af­
ter the Board issues notice of the final order or decision
of the Board.
(2) Cases of discrimination subject to the provi­
sions of section 7702 of this title shall be filed under
section 717(c) of the Civil Rights Act of 1964 (42 U.S.C.
2000e-16(c)), section 15(c) of the Age Discrimination in
Employment Act of 1967 (29 U.S.C. 633a(c)), and sec­
tion 16(b) of the Fair Labor Standards Act of 1938, as
amended (29 U.S.C. 216(b)), as applicable. Notwith­
standing any other provision of law, any such case filed
under any such section must be filed within 30 days
after the date the individual filing the case received
notice of the judicially reviewable action under such
section 7702.
(c) In any case filed in the United States Court of
Appeals for the Federal Circuit, the court shall review

App. 56
the record and hold unlawful and set aside any agency
action, findings, or conclusions found to be—
(1) arbitrary, capricious, an abuse of discre­
tion, or otherwise not in accordance with law;
(2) obtained without procedures required by
law, rule, or regulation having been followed; or
(3) unsupported by substantial evidence;
except that in the case of discrimination brought under
any section referred to in subsection (b)(2) of this sec­
tion, the employee or applicant shall have the right to
have the facts subject to trial de novo by the reviewing
court.
(d)(1) Except as provided under paragraph (2),
this paragraph shall apply to any review obtained by
the Director of the Office of Personnel Management.
The Director may obtain review of any final order or
decision of the Board by filing, within 60 days after the
Board issues notice of the final order or decision of
the Board, a petition for judicial review in the United
States Court of Appeals for the Federal Circuit if the
Director determines, in the discretion of the Director,
that the Board erred in interpreting a civil service law,
rule, or regulation affecting personnel management
and that the Board’s decision will have a substantial
impact on a civil service law, rule, regulation, or policy
directive. If the Director did not intervene in a matter
before the Board, the Director may not petition for re­
view of a Board decision under this section unless the
Director first petitions the Board for a reconsideration
of its decision, and such petition is denied. In addition

App. 57
to the named respondent, the Board and all other par­
ties to the proceedings before the Board shall have the
right to appear in the proceeding before the Court of
Appeals. The granting of the petition for judicial re­
view shall be at the discretion of the Court of Appeals.
(2) [During the 5-year period beginning on the
effective date of the Whistleblower Protection En­
hancement Act of 2012, this paragraph] This para­
graph shall apply to any review obtained by the
Director of the Office of Personnel Management that
raises no challenge to the Board’s disposition of allega­
tions of a prohibited personnel practice described in
section 2302(b) other than practices described in sec­
tion 2302(b)(8), or 2302(b)(9) (A)(i), (B), (C), or (D). The
Director may obtain review of any final order or deci­
sion of the Board by filing, within 60 days after the
Board issues notice of the final order or decision of the
Board, a petition for judicial review in the United
States Court of Appeals for the Federal Circuit or any
court of appeals of competent jurisdiction if the Direc­
tor determines, in the discretion of the Director, that
the Board erred in interpreting a civil service law, rule,
or regulation affecting personnel management and
that the Board’s decision will have a substantial im­
pact on a civil service law, rule, regulation, or policy
directive. If the Director did not intervene in a matter
before the Board, the Director may not petition for re­
view of a Board decision under this section unless the
Director first petitions the Board for a reconsideration
of its decision, and such petition is denied. In addition
to the named respondent, the Board and all other

App. 58
parties to the proceedings before the Board shall have
the right to appear in the proceeding before the court
of appeals. The granting of the petition for judicial re­
view shall be at the discretion of the court of appeals.
*

*

*

*

*

*

*

